Case: 20-30642

Document: 00515921496

Page: 1

Date Filed: 06/30/2021

fHmteb States Court of &ppeate
for tfje Jfitti) Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-30642

June 30, 2021
Lyle W. Cayce
Clerk

Randolph Armstead,

Petitioner—Appellant.,
versus
Keith Deville, Warden, Winn Correctional Center
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:17-CV-5947

ORDER:
IT IS ORDERED that Appellant’s motion for a certificate of
appealability is DENIED.

/s/Patrick E. Higginbotham
Patrick E. Higginbotham
United States Circuit Judge

Case: 20-30642

Document: 00515921510

Page: 1

Date Filed: 06/30/2021

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

June 30, 2021

MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 20-30642

Armstead v. Deville
USDC No. 2:17-CV-5947

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk
By:

Mary C.Stewart,Deputy Clerk
504-310-7694
Ms. Donna Rau Andrieu
Mr. Randolph Armstead

Case 2:17-cv-05947-NJB Document 24 Filed 09/25/20 Page 1 of 2

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
RANDOLPH ARMSTEAD

CIVIL ACTION

VERSUS

NO. 17-5947

KEITH DEVILLE, WARDEN

SECTION “G”(4)

ORDER
“A COA [Certificate of Appealability] will issue only if the requirements of [28 U.S.C.]
§ 2253 have been satisfied.”1 Section 2253(c) permits issuance of a COA when “a petitioner has
made a ‘substantial showing of the denial of a constitutional right.’”2 “Under this standard, when
a district court denies habeas relief by rejecting constitutional claims on their merits, ‘the petitioner
must demonstrate that reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.

When the district court denies the petition on

procedural grounds without reaching the merits, the petitioner must show “that jurists of reason
would find it debatable whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.”4
The petitioner must demonstrate “‘something more than the absence of frivolity or the
existence of mere ‘good faith’ on his or her part.’”5 However, a COA should not be denied “merely

1 Miller-El v. Cockrell, 537 U.S. 322, 336 (2003).
2 Id (quoting 28 U.S.C. § 2253(c)).
3 McGowen v. Thaler, 675 F.3d 482, 498 (5th Cir. 2012) (quoting Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
4 Id (quoting Slack, 529 U.S. at 484).
5 Id. (quoting Miller-El, 537 U.S. at 338).
1

Case 2:17-cv-05947-NJB Document 24 Filed 09/25/20 Page 2 of 2

because [the court] believes the applicant will not demonstrate an entitlement to relief.”6 In
addition “any doubts as to whether a COA should be granted are resolved in the petitioner’s
favor,”7 and the severity of the penalty may be a consideration in deciding whether a petitioner has
made a “substantial showing.”8
For the reasons set forth in this Court’s Order and Reasons adopting the Magistrate Judge’s
Report and Recommendation, Petitioner has not demonstrated a violation of his constitutional
rights. Moreover, this issue would not engender debate among reasonable jurists. Accordingly,
IT IS HEREBY ORDERED that a Certificate of Appealability is DENIED.
NEW ORLEANS, LOUISIANA, this

25th day of September, 2020.

NANNETTE JOLIVETTE BROWN
CHIEF JUDGE
UNITED STATES DISTRICT COURT

6 Id. (quoting Miller-El, 537 U.S. at 337).
1 Id
g

See id. ; Hill v. Johnson, 2010 F.3d 481 484 (5th Cir. 2000) (“[W]e may consider the severity of his penalty in
determining whether he has met his ‘substantial showing’ burden.”).

2

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 1 of 16

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
RANDOLPH ARMSTEAD

CIVIL ACTION

VERSUS

NO. 17-5947

KEITH DEVILLE, WARDEN

SECTION “G”(4)
ORDER AND REASONS

Before the Court are Petitioner Randolph Armstead’s (“Petitioner”) objections to the
second Report and Recommendation of the United States Magistrate Judge assigned to the case. i
Petitioner, a Louisiana state prisoner, filed a petition for writ of habeas corpus pursuant to 28
U.S.C. § 2254.2 The Magistrate Judge initially recommended that the Court dismiss the petition
without prejudice for failure to exhaust state court remedies.3 In objection, Petitioner presented
evidence showing that his state court remedies had been exhausted after the first Report and
Recommendation was issued.4 Accordingly, the Court rejected the first Report and
Recommendation, and referred the matter back to the Magistrate Judge to prepare a second Report
and Recommendation on the remaining claims.5 In the second Report and Recommendation, the
Magistrate Judge recommended that Plaintiffs claims be dismissed on the merits.6 Petitioner
objects to the second Report and Recommendation.7 After reviewing the petition, the State’s
i

Rec. Doc. 19.

2 Rec. Doc. 1.
3 Rec. Doc. 13.
4 Rec. Doc. 14.
5 Rec. Doc. 17.
6 Rec. Doc. 18.
7 Rec. Doc. 19.
1

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 2 of 16

response, the Magistrate Judge’s Report and Recommendation, Petitioner’s objections, the record,
and the applicable law, the Court overrules Petitioner’s objections, adopts the Magistrate Judge’s
recommendation, and dismisses this action with prejudice.
I. Background
A.

Factual Background
On December 16, 2010, Petitioner was charged by Indictment in the Orleans Parish

Criminal District Court with one count of aggravated rape of T.B. and one count of second-degree
kidnapping of T.B.8 On September 2, 2012, the first count was amended to felony carnal
knowledge of a juvenile.9 The State later entered a nolle prosequi as to the second count.10
Petitioner was tried before a jury on March 26, 2013, and he was found guilty of the
amended charge of felony carnal knowledge of a juvenile.11 At a May 3, 2013 hearing, the state
trial court denied Petitioner’s motion for new trial, which was based on a recanting affidavit and
testimony from the victim.12 The same day, the state trial court sentenced Petitioner to serve 10
years in prison.13
On June 4, 2014, the Louisiana Fourth Circuit Court of Appeal reversed Petitioner’s
conviction, finding that the state trial court initially granted a motion to quash the indictment which
divested the trial court of jurisdiction to reverse its own decision and conduct the trial.14 The

8 State Rec., Vol. I of VII, Indictment, Dec. 16, 2010.
9 State Rec., Vol. I of VII, Amended Indictment, Sept. 2, 2012.
!0 State Rec., Vol. I of VII, Minute Entry, Feb. 23, 2017.
11 State Rec., Vol. I of VII, Trial Minutes, Mar. 26, 2013.
12 State Rec., Vol. I of VII, Hearing Minutes, May 3, 2013.
13 State Rec., Vol. I of VII, Sentencing Minutes, May 3, 2013.
14 State v. Armstead, 2014-KA-36 (La. App. 4 Cir. 6/4/14); 144 So. 3d 66.

2

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 3 of 16

Louisiana Supreme Court granted the State’s related writ application, reversed the appellate court,
and reinstated Petitioner’s conviction and sentence.15 The matter was later remanded to the
Louisiana Fourth Circuit to consider Armstead’s remaining claims on appeal.16
On January 28, 2015, the Louisiana Fourth Circuit issued a second opinion and affirmed
Plaintiffs conviction and sentence, finding that the claim challenging the lack of testimony from
the original DNA analyst was not preserved for appeal by timely objection and finding the rest of
Petitioner’s claims to be meritless.17
Petitioner filed a writ application before the Louisiana Supreme Court raising four issues:
(1) the trial court erred by allowing the trial to proceed without the testimony of the victim; (2) the
trial court erred by excluding the statements of the victim’s mother which were exceptions to the
hearsay rule; (3) the trial court erred by denying the motion for new trial where the victim testified
that she was told by someone in the District Attorney’s office not to come to court on the day of
trial because there would be jury selection all day; and (4) the evidence was insufficient to support
the conviction.18 The Louisiana Supreme Court denied the writ application without stated reasons
on January 8, 2016.19
On May 6, 2016, Petitioner submitted an application for post-conviction relief to the state
trial court asserting two grounds for relief: (1) his counsel was ineffective when she did not appeal
the trial court’s reversal of its ruling on the motion to quash; and (2) the trial court was without

15 State v. Armstead, 2014-K-1365 (La. 9/12/14); 147 So. 3d 162.
16 State v. Armstead, 2014-K-1365 (La. 11/21/14), 153 So. 3d 998.
17 State v. Armstead, 2014-0036 (La. App. 4 Cir. 1/28/15); 159 So. 3d 502.
18 State Rec., Vol. VI of VII, La. S. Ct. Writ Application, Feb. 26, 2015.
19 State v. Armstead, 2015-K-392 (La. 1/8/16); 184 So. 3d 692 (La. 2016).

3

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 4 of 16

jurisdiction to grant the State’s request to appeal the granting of the motion to quash.20 The state
trial court summarily denied relief on September 9, 2016.21
The Louisiana Fourth Circuit Court of Appeal denied Petitioner’s related writ application
without stated reasons on February 3, 2017.22 On February 10, 2017, Petitioner submitted a writ
application to the Louisiana Supreme Court seeking review of the appellate decision.23 On May
18, 2018, the Louisiana Supreme Court denied Petitioner’s writ application finding that he failed
to show ineffective assistance under the standards of Strickland v. Washington,24 and his other
claim was repetitive under Louisiana Code of Criminal Procedure article 930.4.25
On June 20, 2017, while the Louisiana Supreme Court proceeding was pending, Petitioner
filed a federal habeas corpus relief application in this Court.26 The petition raises the following
claims for relief: (1) the state trial court erred in allowing trial to proceed without the testimony of
the victim; (2) the state trial court erred by excluding the statements of the victim’s mother which
were exceptions to the hearsay rule; (3) the state trial court erred by denying the motion for a new
trial when the victim testified that she was told by someone in the District Attorney’s office not to
come to court on the day of trial because there would be jury selection all day; (4) the evidence
was insufficient to support the conviction; (5) counsel was ineffective because she did not appeal
the state trial court’s reversal of its ruling on the motion to quash; and (6) the state trial court had

20 State Rec., Vol. VII of VII, Application for Post-Conviction Relief, May 6, 2016.
21 State Rec., Vol. VII of VII, Trial Court Order, Sept. 9, 2016.
22 State ex rel. Armstead v. State, 2017-K-83 (La. App. 4 Cir. 2/3/17); State Rec., Vol. VII of VII.
23 State Rec., Vol. VII of VII, La. S. Ct. Writ Application Feb. 10, 2017 (filed Mar. 1, 2017).
24 466 U.S. 668(1984).
25 State ex rel Armstead v. State, 2017-KH-367 (La. 5/18/18); 242 So. 3d 1221.
26 Rec. Doc. 1.

4

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 5 of 16

no jurisdiction to proceed with the case after it initially granted the motion to quash the
indictment.27
On September 27, 2017, the State filed a response asserting that the petition should be
dismissed for failure to exhaust state court remedies because Petitioner’s post-conviction relief ■
writ application was pending before the Louisiana Supreme Court.28 On May 16, 2018, the
Magistrate Judge recommended that the petition be dismissed without prejudice for failure to
exhaust state court remedies.29 On January 14, 2019, this Court rejected the recommendation
because the Louisiana Supreme Court had ruled on the writ application on May 18, 2018, and
therefore Petitioner had exhausted state court remedies.30
On May 21, 2019, the Magistrate Judge issued a second Report and Recommendation,
recommending that the petition be dismissed with prejudice on the merits.31 On June 3, 2019,
Petitioner filed objections to the Magistrate Judge’s recommendation.32
B.

Report and Recommendation Findings
The Magistrate Judge recommends that the petition be dismissed with prejudice on the

merits.33 First, the Magistrate Judge considered Petitioner’s claim that the state trial court erred
when it allowed trial to proceed without the victim, T.B., present to testify.34 Because the victim’s

21 Id.
28 Rec. Doc. 8.
29 Rec. Doc. 13.
30 Rec. Doc. 17.
31 Rec. Doc. 18.
32 Rec. Doc. 19.
33 Rec. Doc. 18.
34 Id. at 9-11.

5

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 6 of 16

statements were not presented at trial, the Magistrate Judge found that Petitioner’s confrontation
rights were not implicated or violated by the victim’s absence.35 Accordingly, the Magistrate Judge
determined that Petitioner was not entitled to relief on this claim.36
Second, the Magistrate Judge considered Petitioner’s claim that the state trial court erred
by excluding the statements of T.B.’s mother which could have been admitted as exceptions to the
hearsay rule.37 Petitioner argued that T.B.’s mother told Detective Neely that T.B. told her that she
lied about the alleged rape to cover-up how she contracted a sexually transmitted disease.38 On
direct appeal, the Louisiana Fourth Circuit held that Petitioner failed to prove T.B.’s mother was
unavailable to testify to invoke the exception to Louisiana’s hearsay rule, and Petitioner did not
establish that corroborating circumstances indicated the trustworthiness of the mother’s
statement.39 The Magistrate Judge found that the admissibility of testimony is a matter of state law
that is not subject to re-examination on habeas review.40 Because Petitioner had not shown an error
under state law, the Magistrate Judge found no basis for any alleged due process violation.41
Furthermore, even if due process is considered under federal law, the Magistrate Judge determined
that Petitioner had not established that the exclusion of the specifics of the mother’s statement had
an injurious effect on the verdict.42 The Magistrate Judge noted that the jury heard testimony from

35 Id. at 11.
36 Id.

37 Id. at 12-15.
38 Id. at 12.
39 Id.
40 Id.

41 Id. at 14.
42 Id.

6

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 7 of 16

Detective Neely that he originally closed the case as unfounded based on discussions with T.B.’s
mother.43 Accordingly, the Magistrate Judge concluded that the state court’s denial of relief on
this issue was not contrary to or an unreasonable application of federal law.44
Third, the Magistrate Judge considered Petitioner’s claim that the state trial court erred by
denying the motion for new trial when the victim testified at the post-conviction hearing that she
was told not to come to court on the day of trial because there would be jury selection all day 45
The Magistrate Judge found Petitioner’s argument that the state trial court erred when it denied
the motion for a new trial did not involve questions of federal or constitutional law, and therefore,
review of such claims was not proper on habeas review 46 The Magistrate Judge determined that
Petitioner failed to prove a constitutional violation in the failure of the victim to appear or testify
at his trial47 Accordingly, the Magistrate Judge found that Petitioner was not entitled to relief on
this issue 48
Fourth, the Magistrate Judge addressed Petitioner’s claim that the evidence was insufficient
to support the conviction because: (1) the jury should not have believed that he was the perpetrator
when the victim named two other people, whom she said went to her school; (2) Detective Neely
initially closed the case as unfounded; and (3) the DNA evidence and the testing were unreliable 49
The Magistrate Judge found that the jury was well-within the ambit of its authority to resolve and
43 Id.
44 Id. at 15.

45 Id. at 15-16.
46 Id. at 15.
47 Id. at 16.
48

Id.

49 Id. at 16-20.

7

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 8 of 16

consider the amount of evidence brought before it to prove that Petitioner had sexual intercourse
with T.B.50 Accordingly, the Magistrate Judge found that Petitioner was not entitled to relief on
this issue.51
Fifth, the Magistrate Judge considered Petitioner’s claim that his counsel was ineffective
because she did not file a pretrial appeal after the state trial court reversed itself and denied the
motion to quash the indictment.52 The Magistrate Judge noted that this matter was considered twice
on direct appeal.53 Therefore, the Magistrate Judge found that Petitioner suffered no prejudice from
his counsel’s failure to seek pretrial review of the state trial court’s order, and counsel was not
deficient for failing to bring a meritless claim in an earlier proceeding.54 Accordingly, the
Magistrate Judge concluded that the state court’s denial of relief on this issue was not contrary to
or an unreasonable application of federal law.55
Finally, the Magistrate Judge considered Petitioner’s claim that the state trial court was
without jurisdiction to consider the case after it initially granted the motion to quash the
indictment.56 The Magistrate Judge found that Petitioner had not shown an error was made under

50 Mat 19.
S! Id at 20.
52 Id. at 20-26.
53 Id at 25.
54 Id at 25-26.
55 Id. at 26.
56 Id. at 26-28.

8

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 9 of 16

state law, and failed to show a violation of his federal constitutional rights.57 Accordingly, the
Magistrate Judge found that Petitioner was not entitled to relief on this issue.58
II. Objections
A.

Petitioner’s Objections
Petitioner objects to the Magistrate Judge’s Report and Recommendation.59 First,

Petitioner contends that his conviction is invalid because the state trial court did not have
jurisdiction over the case.60 Petitioner asserts that he is innocent of the crime because the alleged
victim stated that she did not have a sexual relationship with Petitioner.61 Second, Petitioner argues
that the Magistrate Judge erred by recommending that the petition be dismissed without ordering
an evidentiary hearing.62
B.

The State’s Opposition
The State of Louisiana did not file a brief in opposition to Petitioner’s objections despite

receiving electronic notice of the filing.
III. Standard of Review
A.

Review of the Magistrate Judge’s Report and Recommendation
In accordance with Local Rule 73.2, this case was referred to the Magistrate Judge to

provide a Report and Recommendation. The District Judge “may accept, reject, or modify the

57 id. at 28.
59 Id.
59 Rec. Doc. 19.
60 Id. at 3-4.
61 id. at 4.
62 Id. at 3.
9

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 10 of 16

recommended disposition” of a Magistrate Judge on a dispositive matter.63 The District Judge must
“determine de novo any part of the [Report and Recommendation] that has been properly objected
to. ”64 The District Court’s review is limited to plain error for parts of the report which are not

properly objected to before imposing sentence.65
B.

Standard ofReview Under the AEDPA
Following the enactment of the Antiterrorism and Effective Death Penalty Act of 1996

(“AEDPA”), the standard of review used to evaluate issues presented iri habeas corpus petitions
was revised “to ensure that state-court convictions are given effect to the extent possible under
law. ”66 For questions of fact, federal courts must defer to a state court’s findings unless they are
“based on an unreasonable determination of the facts in light of the evidence presented in the State
court proceeding. ”67 A state court’s determinations on mixed questions of law and fact or pure
issues of law, on the other hand, are to be upheld unless they are “contrary to, or involve[ ] an
unreasonable application of, clearly established Federal law, as determined by the Supreme Court
of the United States. ”68
Regarding this standard, the U.S. Court of Appeals for the Fifth Circuit further explains:
A state-court decision is contrary to clearly established precedent if the state court
applies a rule that contradicts the governing law set forth in the Supreme Court’s
cases. A state-court decision will also be contrary to clearly established precedent
if the state court confronts a set of facts that are materially indistinguishable from
63 Fed. R. Civ. P. 72(b)(3); see also 28 U.S.C. § 636(b)(1).
64 Fed. R. Civ. P. 72(b)(3).
65 See Douglass v. United Servs. Auto. Ass’n, 79 F.3d 1415, 1428—29 (5th Cir. 1996) (en banc), superseded
by statute on other grounds, 28 U.S.C. § 636(b)(1) (extending time to file objections from ten to fourteen days).
66 Bell v. Cone, 535 U.S. 685, 693 (2002).
67 28 U.S.C. § 2254(d)(2).
68

28 U.S.C. § 2254(d)(1).

10

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 11 of 16

a decision of the Supreme Court and nevertheless arrives at a result different from
Supreme Court precedent. A state-court decision involves an unreasonable
application of Supreme Court precedent if the state court identifies the correct
governing legal rule from the Court’s cases but unreasonably applies it to the facts
of the particular state prisoner’s case.69
If Supreme Court case law “give[s] no clear answer to the question presented, let alone one in [the
petitioner’s] favor, ‘it cannot be said that the state court unreasonably applied clearly established
Federal law.’”70 Additionally, “unreasonable is not the same as erroneous or incorrect; an incorrect
application of the law by a state court will nonetheless be affirmed if it is not simultaneously
unreasonable.”71
A district judge “may accept, reject, or modify the recommended disposition” of a
magistrate judge on a dispositive matter.72 A district judge must “determine de novo any part of
the [Report and Recommendation] that has been properly objected to.”73 A district court’s review
is limited to plain error for parts of the report which are not properly objected to.74
“A fundamental prerequisite for federal habeas relief under § 2254 is the exhaustion of all
claims in state court prior to requesting federal collateral relief.”75 The Fifth Circuit has recognized
that “habeas corpus jurisprudence consistently underscores the central importance of comity, of

69 Wooten v. Thaler, 598 F.3d 215, 218 (5th Cir. 2010) (citations and quotation marks omitted).
70 Wright v. Van Patten, 552 U.S. 120, 126 (2008) (quoting Carey v. Musladin, 549 U.S. 70, 77 (2006)).
71 Puckett v. Epps, 641 F.3d 657, 663 (5th Cir. 2011) (quotation marks omitted).
72 Fed. R. Civ. P. 72(b)(3); see also 28 U.S.C. § 636(b)(1).
73 Fed. R. Civ. P. 72(b)(3).
74 See Douglass v. United Servs. Auto. Ass’n, 79 F.3d 1415, 1428-29 (5th Cir. 1996) (en banc), superseded
by statute on other grounds, 28 U.S.C. § 636(b)(1) (extending time to file objections from ten to fourteen days).
75 Whitehead v. Johnson, 157 F.3d 384, 397 (5th Cir. 1998) (citing Rose v. Lundy, 455 U.S. 509, 519-20
(1982)).

11

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 12 of 16

cooperation and of rapport between the parallel systems of state and federal courts.”76 “These
concerns animate [the court’s] strict adherence to the doctrine of exhaustion—i.e., the notion that
federal courts will not consider a claim on habeas review if it has not been considered and finally
rejected by the state courts. 5>77
IV. Analysis
Petitioner raises two objections to the Report and Recommendation.78 First, Petitioner
contends that his conviction is invalid because the state trial court did not have jurisdiction over
the case.79 Second, Petitioner argues that the Magistrate Judge erred by recommending that the
petition be dismissed without ordering an evidentiary hearing.80 The Court addresses each of these
issues in turn.
A.

Jurisdiction of the State Trial Court
Petitioner contends that his conviction is invalid because the state trial court did not have
i

jurisdiction over the case.81 The jurisdictional issue involves a question of state law. Petitioner
argues that under Louisiana law, the state trial court was divested of jurisdiction when it granted
the State’s motion for leave to appeal, and therefore the state trial court did not have jurisdiction

i

to reconsider its order granting the motion to quash and proceed to trial.82 On direct appeal, the
Louisiana Fourth Circuit Court of Appeal granted relief on this issue, finding that the state trial

76 Gomez v. Dretke, 422 F.3d 264,266 (5th Cir. 2005) (internal citations and quotation marks omitted).
77 Id.
78 Rec. Doc. 19.
79 Id. at 3-4.
80

Id. at 3.
i

81 Id. at 3-4.
82 Rec. Doc. 1 at 11, 30-32.

12

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 13 of 16

court was divested of jurisdiction to reconsider its ruling when it granted the State’s motion for
leave to appeal.83 However, the Louisiana Supreme Court reversed that decision, reinstating
Petitioner’s conviction and sentence. 84
Petitioner’s claim that the state courts erroneously applied state law is not cognizable on
federal habeas review. “The habeas statute unambiguously provides that a federal court may issue
a writ of habeas corpus to a state prisoner only on the ground that he is in custody in violation of
the Constitution or laws or treaties of the United States.”85 A federal habeas court does “not sit as
[a] ‘super’ state supreme court in a habeas corpus proceeding to review errors under state law. >’86
Additionally, Petitioner has not demonstrated that a federal constitutional violation arose
from the actions of the state courts. Petitioner was provided significant appellate review of the
jurisdictional authority of the state trial court and the propriety of the denial of his motion to quash.
He has pointed to nothing to demonstrate that he was denied a fair hearing on any aspect of his
claims. Therefore, on de novo review, the Court finds that Petitioner is not entitled to habeas relief
on this claim because the state courts’ denial of relief on this issue was not contrary or an
unreasonable application of federal law.
B.

Entitlement to an Evidentiary Hearing
Petitioner argues that the Magistrate Judge erred by recommending that the petition be

dismissed without ordering an evidentiary hearing.87 28 U.S.C. § 2254(e)(2) provides that afederal

83 Armstead, 144 So. 3d at 66.
84 Armstead, 147 So. 3d at 162.
85 Swarthout v. Cooke, 562 U.S. 216, 219 (2011) (internal citations and quotation marks omitted).
86

Wilkerson v. Whitley, 16 F.3d 64, 67 (5th Cir. 1994).

87 Rec. Doc. 19 at 3.

13

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 14 of 16

district court shall not hold an evidentiary hearing “[i]f the applicant has failed to develop the
factual basis of a claim in State court proceedings . . . unless the applicant shows that” the claim
falls within certain narrow exceptions.88 In Cullen v. Pinholster, the Supreme Court recognized
that the AEDPA limits “the power of a federal court to grant an application for a writ of habeas
corpus on behalf of a state prisoner. ”89 The Supreme Court explained that, because Section
2254(d)(1) “refers, in the past tense, to a state-court adjudication that ‘resulted in’ a decision that
was contrary to, or ‘involved’ an unreasonable application of, established law[,] [t]his backwardlooking language requires an examination of the state-court decision at the time it was made. ”90
Thus, “the record under review is limited to the record in existence at that same time, i.e.,
the record before the state court. ”91 « Pinholster prohibits a federal court from using evidence that
is introduced for the first time at a federal-court evidentiary hearing as the basis for concluding
that a state court’s adjudication is not entitled to deference under § 2254(d). ”92 Moreover, a federal
district court may conduct an evidentiary hearing if it first determines, based only on the state

88

28 U.S.C. § 2254(e)(2). These narrow exceptions exist where:

(A) the claim relies on—
(i) a new rule of constitutional law, made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through the
exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and convincing evidence
that but for constitutional error, no reasonable factfinder would have found the applicant guilty of
the underlying offense.
89

563 U.S. 170, 181 (2011).

90 Id. (quoting 28 U.S.C. § 2254(d)(1)).
91 Id.
92 See Blue v. Thaler, 665 F.3d 647, 656 (5th Cir. 2011).
14

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 15 of 16

record, that the state court’s decision on an issue of fact “was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding. „93
In the instant case, Petitioner has not demonstrated based on the state record that the state
court’s resolution of Petitioner’s claims was contrary to, or involved an unreasonable application
of, clearly established federal law. Petitioner also has not shown based on the state record that the
state court’s resolution of any issue of fact was based on an unreasonable determination of the
facts in light of the evidence presented in the state court proceeding. Accordingly, Petitioner has
not shown that an evidentiary hearing is warranted.
B.

Portions of the Report and Recommendation Without Objection
Petitioner does not object to the other portions of the Report and Recommendation.

Specifically, the Magistrate Judge found that Petitioner is not entitled to relief on his claims that:
(1) the state trial court erred in allowing trial to proceed without* the testimony of the victim; (2)
the state trial court erred by excluding the statements of the victim’s mother which were exceptions
to the hearsay rule; (3) the state trial court erred by denying the motion for new trial when the
victim testified that she was told by someone in the District Attorney’s office not to come to court
on the day of trial because there would be jury selection all day; (4) the evidence was insufficient
to support the conviction; and (5) counsel was ineffective because she did not appeal the state trial
court’s reversal of its ruling on the motion to quash.94 The Magistrate Judge thoroughly analyzed
the law and the facts applicable to these claims, and Petitioner does not object to the Magistrate
Judge’s findings. Reviewing these portions of the Report and Recommendation for plain error,95

93 28 U.S.C. § 2254(d)(2). See also Blue, 665 F.3d at 657.
94 Rec. Doc. 18.
95 See Douglass, 79 F.3d at 1428—29.

15

Case 2:17-cv-05947-NJB Document 22 Filed 09/25/20 Page 16 of 16

and finding none, the Court adopts the Magistrate Judge’s recommendation that Petitioner’s claims
be dismissed with prejudice.
V. Conclusion
For the reasons stated above, on de novo review, the Court finds that Petitioner is not
entitled to federal habeas relief on his claim that the state trial court was without jurisdiction to
reconsider its ruling on the motion to quash the indictment. Furthermore, finding no plain error in
the portions of the Report and Recommendation to which Petitioner does not object, the Court
adopts the Magistrate Judge’s recommendation that Petitioner’s claims be dismissed with
prejudice. Accordingly,
IT IS HEREBY ORDERED that Petitioner’s objections are OVERRULED;
IT IS FURTHER ORDERED that the Court ADOPTS the Magistrate Judge’s
recommendation and Petitioner Randolph Armstead’s petition for issuance for a writ of habeas
corpus pursuant to 28 U.S.C. § 2254 is DENIED and DISMISSED WITH PREJUDICE.
NEW ORLEANS, LOUISIANA, this 25th day of September, 2020.

NANNETTE JOLIVETTE BROWN
CHIEF JUDGE
UNITED STATES DISTRICT COURT

16

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 1 of 29

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
RANDOLPH ARMSTEAD

CIVIL ACTION

VERSUS

NO. 17-5947

KEITH DEVILLE, WARDEN

SECTION “G”(4)

REPORT AND RECOMMENDATION
The petitioner, Randolph Armstead (“Armstead”), filed a petition for federal habeas corpus
relief under 28 U.S.C. § 2254 that was referred to a United States Magistrate Judge to conduct
hearings, including an evidentiary hearing if necessary, and to submit proposed findings and
recommendations pursuant to 28 U.S.C. § 636(b)(1)(B) and (C), and as applicable, Rule 8(b) of
the Rules Governing Section 2254 Cases.
On May 16,2018, the undersigned Magistrate Judge issued a Report and Recommendation
recommending dismissal of Armstead’s petition for failure to exhaust state court remedies unless
Armstead dismissed, or amended the petition to exclude, the two unexhausted claims.1 After
review of Armstead’s objections, the District Judge found that exhaustion was completed
sometime after the Report and Recommendation was entered and referred the matter back to the
undersigned magistrate judge for issuance of a report and recommendation on the remaining
claims.2 Upon review of the entire record, the Court has determined that this matter can be
disposed of without an evidentiary hearing. See 28 U.S.C. § 2254(e)(2) (2006).3

lRec. Doc. No. 13.
2Rec. Doc. Nos. 14, 17.
3Under 28 U.S.C. § 2254(e)(2), an evidentiary hearing is held only when the petitioner shows that either the
claim relies on a new, retroactive rule of constitutional law that was previously unavailable or a factual basis that could
not have been previously discovered by the exercise of due diligence and the facts underlying the claim show by clear
and convincing evidence that, but for the constitutional error, no reasonable jury would have convicted the petitioner.

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 2 of 29

I.

Factual and Procedural Background
Armstead was indicted by an Orleans Parish Grand Jury for one count of aggravated rape

of T.B. and one count of second degree kidnapping of T.B.4 The first count was amended on
September 2, 2012, to felony carnal knowledge of a juvenile.5 The State entered a nolle prosequi
as to the second count.6
The record reflects that, on November 18, 2001, T.B., who was 16 years old, was seen at
University Hospital for a sexual assault examination after she reported being raped.7 T.B. initially
told the attending nurse that two boys, whom she identified by name, had threatened and attacked
her. T.B. later told Detective Clifton Neely of the New Orleans Police Department (“NOPD”) a
different version of the events but was consistent in her description of where it occurred. Detective
Neely was unable to develop a suspect, because of the inconsistencies in T.B.’s statements and
those of her mother. Based on this, the Detective suspected that the allegations were “unfounded,”
and he eventually administratively closed the case. Because the case was closed, the seal on the
sexual assault examination materials (“rape kit”) was never broken or tested for DNA.
The rape kit remained sealed and untested in Central Evidence and Property until 2004,
when the kit was sent to ReliaGene, a private DNA laboratory in New Orleans, in connection with
a federally funded program intended to clear up the City’s backlog of untested rape examination
kits. The results were recorded, and the case was considered a closed, “cold case” until 2007. At

4St. Rec. Vol. 1 of 7, Indictment, 12/16/10. Louisiana law requires the use of initials to identify minors and
victims of sex crimes, and this Court will abide by that preference. La. Rev. Stat. Ann. § 46:1844W.
5St. Rec. Vol. 1 of 7, Indictment, 12/16/10 (amended 9/2/12).
6St. Rec. Vol. 1 of 7, Minute Entry, 2/23/17.
7The facts were taken from the published opinion of the Louisiana Fourth Circuit Court of Appeal. State v.
Armstead, 159 So.3d 502,508-10 (La. App. 4th Cir. 2015); St. Rec. Vol. 6 of 7,4th Cir. Opinion, 2014-KA-0036, pp.
4-7, 1/28/15.
2

i

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 3 of 29

that point, Detective Francis Jarrott received correspondence from the NOPD’s Criminal
Investigation Division stating that there had been a CODIS8 hit for Randolph Armstead, who
would have been 21 years old in 2001 when the alleged rape occurred.
When interviewed by Detective Jarrott in November of 2007, T.B. indicated that she knew
Armstead and that she had not had consensual sex with him. Armstead was arrested and with a
warrant, a buccal swab sample was taken and again confirmed a match with T.B.’s rape kit.
Armstead was tried before a jury on March 26, 2013 and found guilty of the amended
charge of felony carnal knowledge of a juvenile.9 At a May 3, 2013, hearing, the Trial Court
denied Armstead’s motion for new trial, which was based on a recanting affidavit and testimony
from the victim.10 The Court sentenced Armstead that day to serve 10 years in prison. li
On direct appeal to the Louisiana Fourth Circuit Court of Appeal, Armstead’s counsel
asserted six errors:12 (1) the evidence was insufficient to support the verdict; (2) the Trial Court
erred by allowing the trial to proceed without the testimony of the victim; (3) the Trial Court erred
by allowing the trial to proceed without the testimony of the original DNA analyst; (4) the Trial
Court erred by reversing its own ruling on the motion to quash; (5) the Trial Court erred by
excluding the statements of the victim’s mother which were exceptions to the hearsay rule; and (6)
the Trial Court erred by denying the motion for new trial where the victim testified that she was

8CODIS is the acronym for the Combined DNA Index System, https://www.fbi.gov.
9St. Rec. Vol. 1 of 7, Trial Minutes (3 pages), 3/26/13; St. Rec. Vol. 2 of 7, Trial Transcript, 3/26/13.
10St. Rec. Vol. 1 of 7, Hearing Minutes, 5/3/13; Motion for New Trial (undated); St. Rec. Vol. 2 of 7,
Sentencing Transcript, 5/3/13.
uSt. Rec. Vol. 1 of 7, Sentencing Minutes, 5/3/13; St. Rec. Vol. 2 of 7, Sentencing Transcript, 5/3/13. The
State filed a multiple bill at this hearing, but it was not pursued.
12St. Rec. Vol. 5 of 7, Appeal Brief, 2014-KA-0036, undated.
3

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 4 of 29

told by someone in the District Attorney’s office not to come to court on the day of trial because
there would be jury selection all day. Armstead’s counsel also filed a supplemental brief providing
additional argument regarding the fourth claim.13
In its first opinion, the Louisiana Fourth Circuit determined that the Trial Court’s initial
grant of Armstead’s motion to quash the indictment divested the court of jurisdiction, leaving it
with no authority to reverse itself or conduct the trial.14 The Louisiana Supreme Court, however,
granted the State’s subsequent writ application, reversed the appellate court, and reinstated
Armstead’s conviction and sentence.15 The matter was later remanded to the Louisiana Fourth
Circuit to consider Armstead’s remaining claims on appeal.16
On January 28, 2015, the Louisiana Fourth Circuit issued a second opinion and affirmed
Armstead’s conviction and sentence finding no merit in five of the claims and finding that the third
claim, challenging the lack of testimony from the original DNA analyst, was not preserved for
appeal by timely objection.17
In the Louisiana Supreme Court, Armstead’s counsel asserted only four of the issues,
specifically:18 (1) the Trial Court erred by allowing the trial to proceed without the testimony of
the victim; (2) the Trial Court erred by excluding the statements of the victim’s mother which were

,3St. Rec. Vol. 5 of 7, Supplemental Brief, 2014-KA-0036, 4/16/14.
State v. Armstead, 144 So.3d 66 (La. App. 4th Cir. 2014); St. Rec. Vol. 5 of 7,4th Cir. Opinion, 2014-KA0036, 6/4/14.
“State v. Armstead, 147 So.3d 162 (La. 2014); St. Rec. Vol. 5 of 7, La. S. Ct. Order, 2014-K-1365, 9/12/14;
La. S. Ct. Writ Application, 14-K-1365, 6/27/14.
X6State v. Armstead, 153 So.3d 998 (La. 2014); St. Rec. Vol. 5 of 7, La. S. Ct. Order, 2014-K-1365, 11/21/14;
Motion to Remand, 14-K-1365, 9/16/14.
17Armstead, 159 So.3d at 502; St. Rec. Vol. 6 of 7, 4th Cir. Opinion, 2014-KA-0036, 1/28/15.
18St. Rec. Vol. 6 of 7, La. S. Ct. Writ Application, 2014-K-1365, 2/26/15.
4

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 5 of 29

exceptions to the hearsay rule; (3) the Trial Court erred by denying the motion for new trial where
the victim testified that she was told by someone in the District Attorney’s office not to come to
court on the day of trial because there would be jury selection all day; and (4) the evidence was
insufficient to support the conviction. The Louisiana Supreme Court denied the writ application
without stated reasons on January 8, 2016.19
Armstead’s conviction was final under federal law ninety (90) days later, on April 7,2016,
when he did not file a writ application with the United States Supreme Court. Ott v. Johnson, 192
F.3d510,513 (5th Cir. 1999) (time for filing for certiorari with the U.S. Supreme Court is included
in the finality determination under 28 U.S.C. § 2244(d)(1)(A)); U.S. Sup. Ct. Rule 13(1).
On May 6, 2016, Armstead signed and submitted an application for post-conviction relief
to the Trial Court asserting two grounds for relief:20 (1) his counsel was ineffective when she did
not appeal the Trial Court’s reversal of its ruling on the motion to quash; and (2) the Trial Court
was without jurisdiction to grant the State’s request to appeal the granting of the motion to quash.
The Trial Court summarily denied relief on September 9, 2016.21
The Louisiana Fourth Circuit denied Armstead’s related and untimely22 writ application
without stated reasons on February 3, 2017.23

l9State v. Armstead, 184 So.3d 692 (La. 2016); St. Rec. Vol. 6 of 7, La. S. Ct. Order, 2015-K-0392, 1/8/16.
20St. Rec. Vol. 7 of 7, Application for Post-Conviction Relief, dated 5/6/16 (no file stamp).
21 St. Rec. Vol. 7 of 7, Trial Court Order, 9/9/16. On September 29,2016, the Louisiana Fourth Circuit denied
Armstead’s related mandamus application as moot. St. Rec. Vol. 7 of 7, 4th Cir. Order, 2016-K-0956, 9/29/16. His
application for copies was denied on December 12,2016. St. Rec. Vol. 7 of 7,4th Cir. Order, 2016-K-l 179,12/12/16.
22La. App. R. 4-3 provides that a petitioner must file a writ application within 30 days of the issuance of a
trial court’s order. Armstead did not meet this deadline. The record reflects that Armstead knew and had a copy of
the Trial Court’s ruling before October 30, 2016, leaving no excuse for his untimely filing. St. Rec. Vol. 7 of 7, Letter
to the Clerk, 10/30/2016 (stating he wrote a letter 10-days earlier). Nevertheless, the Louisiana Fourth Circuit later
ordered that he be provided a copy of that ruling. St. Rec. Vol. 7 of 7,4th Cir. Order, 2016-K-l 179, 11/22/16. This
order was issued almost two months before Armstead filed his writ application.
23St. Rec. Vol. 7 of 7, 4th Cir. Order, 2017-K-0083, 2/3/17; 4th Cir. Writ Application, 2017-K-0083, dated
5

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 6 of 29

On February 10, 2017, Armstead signed and submitted a writ application to the Louisiana
Supreme Court seeking review of the appellate decision.24 On May 18, 2018, the Court denied
Armstead’s application finding that he failed to show ineffective assistance under the standards of
Strickland v. Washington, 466 U.S. 668 (1984), and his other claim was repetitive, citing La. Code
Crim. P. art. 930.4.25
II.

Federal Habeas Petition
On June 20,2017, the clerk of this Court filed Armstead’s petition for federal habeas corpus

relief in which he asserted the following grounds for relief:26 (1) the Trial Court erred in allowing
trial to proceed without the testimony of the victim; (2) the Trial Court erred by excluding the
statements of the victim’s mother which were exceptions to the hearsay rule; (3) the Trial Court
erred by denying the motion for new trial when the victim testified that she was told by someone
in the District Attorney’s office not to come to court on the day of trial because there would be
jury selection all day; (4) the evidence was insufficient to support the conviction; (5) his counsel
was ineffective because she did not appeal the Trial Court’s reversal of its ruling on the motion to
quash; and (6) the Trial Court had no jurisdiction to grant the State’s request to appeal the granting
of the motion to quash.
The State filed an answer and memorandum in opposition to the petition asserting that
Armstead failed to exhaust state court remedies, because of his then-pending Louisiana Supreme
Court writ application.

1/20/17.
24St. Rec. Vol. 7 of 7, La. S. Ct. Writ Application, 17-KH-367, 3/1/17 (dated 2/10/17).
25State ex rel. Armstead v. State, 242 So.3d 1221 (La. 2018); Rec. Doc. No. 14-1.
26Rec. Doc. No. 1.
6

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 7 of 29

III.

General Standards of Review
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), Pub. L. No. 104-

132, 110 Stat. 1214,27 applies to this petition, which is deemed filed in this Court under the federal
mailbox rule on June 14, 2017.28 The threshold questions on habeas review under the amended
statute are whether the petition is timely and whether the claim raised by the petitioner was
adjudicated on the merits in state court; i. e., the petitioner must have exhausted state court remedies
and the claims must not be in “procedural default.” Nobles v. Johnson, 127 F.3d 409,419-20 (5th
Cir. 1997) (citing 28 U.S.C. § 2254(b), (c)).
The exhaustion defense asserted by the State has already been resolved. The Court will
address Armstead’s claims.
IV.

Standards of a Merits Review of the Remaining Claims
The AEDPA standard of review is governed by § 2254(d) and the Supreme Court’s

decision in Williams v. Taylor, 529 U.S. 362 (2000). It provides different standards for questions
of fact, questions of law, and mixed questions of fact and law.
A state court’s determinations of questions of fact are presumed correct and the Court must
give deference to the state court findings unless they were based on an unreasonable determination

27The AEDPA comprehensively revised federal habeas corpus legislation, including 28 U.S.C. § 2254, and
applied to habeas petitions filed after its effective date, April 24, 1996. Flanagan v. Johnson, 154 F.3d 196, 198 (5th
Cir. 1998) (citing Lindh v. Murphy, 521 U.S. 320 (1997)). The AEDPA, signed into law on that date, does not specify
an effective date for its non-capital habeas corpus amendments. Absent legislative intent to the contrary, statutes are
effective at the moment they are signed into law. United States v. Sherrod, 964 F.2d 1501, 1505 n.l 1 (5th Cir. 1992).
28The Fifth Circuit has recognized that a “mailbox rule” applies to pleadings, including habeas corpus
petitions filed after the effective date of the AEDPA, submitted to federal courts by prisoners acting pro se. Under this
rule, the date when prison officials receive the pleading from the inmate for delivery to the court is considered the
time of filing for limitations purposes. Coleman v. Johnson, 184 F.3d 398, 401 (5th Cir. 1999); Spotville v. Cain, 149
F.3d 374, 378 (5th Cir. 1998); Cooper v. Brookshire, 70 F.3d 377, 379 (5th Cir. 1995). The clerk of court filed
Armstead’s petition on June 20, 2017, when it was received, and opened the matter on June 22, 2017, when pauper
status was granted. Armstead dated his signature on the complaint on June 14, 2017, which is the earliest date
appearing in the record on which he could have presented his pleadings to prison officials for mailing to this Court.
7

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 8 of 29
f

of the facts in light of the evidence presented in the state court proceeding. 28 U.S.C. § 2254(d)(2)
(2006); see Hill v. Johnson, 210 F.3d 481, 485 (5th Cir. 2000). The amended statute also codifies
the “presumption of correctness” that attaches to state court findings of fact and the “clear and
convincing evidence” burden placed on a petitioner who attempts to overcome that presumption.
28 U.S.C. § 2254(e)(1).
A state court’s determination of questions of law and mixed questions of law and fact are
reviewed under § 2254(d)(1), as amended by the AEDPA. The standard provides that deference
be given to the state court’s decision unless the decision is “contrary to or involves an unreasonable
application of clearly established federal law” as determined by the United States Supreme Court.
Hill, 210 F.3d at 485. The “critical point” in determining the Supreme Court rule to be applied “is
that relief is available under § 2254(d)(l)’s unreasonable-application clause if, and only if, it is so
obvious that a clearly established rule applies to a given set of facts that there could be no
‘fairminded disagreement’ on the question.” White v. Woodall, 572 U.S. 415, 427 (2014) (citing
Harrington v. Richter, 562 U.S. 86,103 (2011)). “Thus, ‘if a habeas court must extend a rationale
before it can apply to the facts at hand,’ then by definition the rationale was not ‘clearly established
at the time of the state-court decision.’” White, 572 U.S. at 426 (quoting Yarborough v. Alvarado,
541 U.S. 652, 666 (2004)).
A state court’s decision can be “contrary to” federal law if: (1) the state court arrives at a
conclusion opposite to that reached by the Supreme Court on a question of law; or (2) the state
court decides a case differently than the Supreme Court has on a set of materially indistinguishable
facts. Williams, 529 U.S. at 405-06,412-13; Penry v. Johnson, 532 U.S. 782, 792-93 (2001); Hill,
210 F.3d at 485. A state court’s decision can involve an “unreasonable application” of federal law

8

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 9 of 29

if it correctly identifies the governing rule but then applies it unreasonably to the facts. White, 572
U.S. at 426-27; Williams, 529 U.S. at 406-08, 413; Penry, 532 U.S. at 792.
The Supreme Court in Williams did not specifically define “unreasonable” in the context
of decisions involving unreasonable applications of federal law. See Williams, 529 U.S. at 410.
The Court, however, noted that an unreasonable application of federal law is different from an
incorrect application of federal law. Id. “‘[A] federal habeas court may not issue the writ simply
because that court concludes in its independent judgment that the state-court decision applied [a
Supreme Court case] incorrectly.’” Price v. Vincent, 538 U.S. 634, 641 (2003) (quoting Woodford
v. Visciotti, 537 U.S. 19, 24-25 (2002)) (brackets in original); Bell v. Cone, 535 U.S. 685, 699
(2002).

Thus, under the “unreasonable application” determination, the Court need not determine
whether the state court’s reasoning is sound, rather “the only question for a federal habeas court is
whether the state court’s determination is objectively unreasonable.” Neal v. Puckett, 286 F.3d
230, 246 (5th Cir. 2002). The burden is on the petitioner to show that the state court applied the
precedent to the facts of his case in an objectively unreasonable manner. Price, 538 U.S. at 641
(quoting Woodford, 537 U.S. at 24-25); Wright v. Quarterman, 470 F.3d 581, 585 (5th Cir. 2006).
In addition, review under § 2254(d)(1) is limited to the record before the state court that
adjudicated the claim on the merits. Cullen v. Pinholster, 563 U.S. 170, 181 (2011).
V.

Analysis
A.

Trial without the Victim’s Testimony (Claim No. 1)

Armstead alleges that the state trial court erred when it allowed trial to proceed without the
victim present to testify. The Louisiana Fourth Circuit addressed this issue on direct appeal. The
Court held that the trial on the reduced charge without the victim present did not violate the

9

t

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 10 of 29

Confrontation Clause, because the conviction was not based on the victim’s statements (and none
were admitted) but on the age difference and the DNA evidence.29 This was the last reasoned
opinion on the claim. Wilson v. Sellers,_U.S.__ , 138 S. Ct. 1188, 1192 (2018) (“We hold that
the federal court should Took through’ the unexplained decision to the last related state-court
decision that does provide a relevant rationale . . . then presume that the unexplained decision
adopted the same reasoning.”); see also, Ylstv. Nunnemaker, 501 U.S. 797, 802 (1991) (same as
to imposition of procedural default).
A Confrontation Clause claim presents a mixed question of law and fact. Fratta v.
Quarterman, 536 F.3d 485,499 (5th Cir. 2008). The Court must defer to the state court’s decision
rejecting the claim unless the decision was contrary to or involved an unreasonable application of
Supreme Court law.
The Confrontation Clause of the Sixth Amendment provides that “[i]n all criminal
prosecutions, the accused shall enjoy the right ... to be confronted with the witnesses against
him.” Davisv. Washington, 547 U.S. 813, 821 (2006). The United States Supreme Court has held
that the Confrontation Clause prohibits “admission of testimonial statements of a witness who did
not appear at trial unless he was unavailable to testify, and the defendant had a prior opportunity
for cross-examination.” Crawford v. Washington, 541 U.S. 36, 53-54 (2004); Melendez-Diaz v.
Mass., 557 U.S. 305, 309-310 (2009). The Court further held that this prohibition applies only to
the admissibility of testimonial statements. Crawford, 541 U.S. at 51. “It is the testimonial
character of the statement that separates it from other hearsay that, while subject to traditional
limitations upon hearsay evidence, is not subject to the Confrontation Clause.” Davis, 547 U.S. at
821.

29Armstead, 159 So.3d at 517-18; St. Rec. Vol. 6 of 7,4th Cir. Opinion, 2014-KA-0036, pp. 22-24, 1/28/15.
10

i

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 11 of 29
i

Thus, the primary purpose of the confrontation right is to provide a defendant with the
opportunity to cross-examine his accuser before the jury, so that the jury can assess the accuser’s
credibility. Davis v. Alaska, 415 U.S. 308, 315 (1973); Mattox v. United States, 156 U.S. 237,
242-43 (1895). However, the confrontation right “does not... require the government to produce
witnesses whose statements are not used at trial ... .” (citation omitted) Pennsylvania v. Ritchie,
480 U.S. 39, 54 n. 10 (1987); Bernier v. Scott, 43 F.3d 670, 1994 WL 725098, at *2 (5th Cir. Dec.
21, 1994) (Table, Text in Westlaw) (quoting United States v. Sanchez, 988 F.2d 21384, 1392 (5th
Cir. 1993)); cf. Shaw v. Collins, 5 F.3d 128 (5th Cir. 1993) (a defendant’s confrontation rights
were violated when the victim’s statements were admitted, and the victim did not testify); see also
Lowery v. Collins, 988 F.2d 1364,1369 (5th Cir. 1993) (same). Thus, a defendant’s confrontation
rights are not violated simply, because the victim did not testify, but only when the victim’s outof-court statements are admitted into evidence without an opportunity for cross-examination.
Bernier, 1994 WL 725098, at *2 (no confrontation right violation where prosecutor did not call
the victim nor did it introduce any of his out-of-court statements); see Hubbard v. Miss. Dept, of
Corr., No. 07-349, 2010WL2671930, at *18-19 (S.D. Miss. May 27, 2010).
In this case, T.B. was not present at trial, and this was known to the defense before trial
began.30 During trial, the State also did not rely on or introduce any statements made by T.B.
Based on the federal law cited above, because the absent-victim’s statements were not presented
at trial, Armstead’s confrontation rights were not implicated or violated by the victim’s absence.
The state courts’ denial of relief on this issue was not contrary or an unreasonable
application of Supreme Court law. Armstead is not entitled to relief on this claim.

30St. Rec. Vol. 2 of 7, Trial Transcript, pp. 6-7, 3/26/13; see also Armstead, 159 So.3d at 517-18; St. Rec.
Vol. 6 of 7, 4th Cir. Opinion, 2014-KA-0036, pp. 22-24, 1/28/15.
11

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 12 of 29

B.

Exclusion of the Mother’s Testimony (Claim No. 2)

Armstead alleges that the state trial court erred by excluding the statements of the victim’s
mother which could have been admitted as exceptions to the hearsay rule. Armstead argues that
the mother told Detective Neely that T.B. told her that she lied about the alleged rape to cover-up
how she contracted a sexually transmitted disease or “STD.” This was in part the basis for the
detective closing the case as “unfounded.” Armstead claims that the state trial court should have
allowed him to introduce the mother’s statements (or question the detective about them) at trial
under Louisiana’s statements-against-interest exception to the hearsay rule.
Armstead’s appointed counsel asserted this claim on direct appeal. The Louisiana Fourth
Circuit affirmed the state trial court’s refusal to allow testimony regarding the mother’s statement
to Detective Neely. The Court held that Armstead failed to prove that the mother was unavailable
to testify to invoke the exception to Louisiana’s hearsay rule under La. Code Ev. arts. 801, 804
and otherwise did not seek to subpoena her for the defense.31 The Court further held that Armstead
also did not meet the exception under Article 804(B)(3), because Armstead did not establish that
corroborating circumstances indicated the trustworthiness of the mother’s statement.
The admissibility of testimony is a matter of state law that is not subject to re-examination
by this federal court on habeas review. It is not the province of a federal habeas court to asses a
state court’s application of state law or determination of state-law questions on the admissibility
of evidence. Swarthout v. Cooke, 562 U.S. 216, 219 (2011); Wilkerson v. Whitley, 16 F.3d 64, 67
(5th Cir. 1994) (a federal court does “not sit as [a] ‘super’ state supreme court in a habeas corpus
proceeding to review errors under state law.”) (internal quotation omitted). Instead, “a federal
court may grant habeas relief based on an erroneous state court evidentiary ruling only if the ruling

31Armstead, 159 So.3d at 517-17; St. Rec. Vol. 6 of 7, 4th Cir. Opinion, 2014-KA-0036, pp. 19-22, 1/28/15.
12
I

1

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 13 of 29

also violates a specific federal constitutional right or renders the petitioner’s trial fundamentally
unfair.” Gochicoa v. Johnson, 118 F.3d 440, 446 (5th Cir. 1997). To do so, the petitioner must
demonstrate that the error had a substantial and injurious effect on the jury’s verdict in violation
of due process. See Fry v. Filler, 551 U.S. 112 (2007); Brecht v. Abrahamson, 507 U.S. 619
(1993).
The record in this case reflects that, prior to trial, the State filed a motion in limine to
preclude any reference at trial to the victim’s prior sexual activity in accordance with Louisiana
law. The state trial court heard argument from counsel with specific reference to the mother’s
statement to Detective Neely that T.B. lied about the rape to explain how she contracted an STD.
This apparently led, at least in part, to Detective Neely’s decision not to pursue further
investigation; instead, he closed the case noting it was unfounded. The state trial court granted the
State’s motion finding that the information regarding the STD was precluded as irrelevant and
unnecessarily disclosed the victim’s unrelated sexual activity and any statement by the mother
about what the victim told her was hearsay. The Court rejected defense counsel’s argument that
the mother’s statement was not hearsay or that it met the statement against interest exception to
the hearsay rule.
Armstead has not established an error under state law. The state trial and appellate courts
determined that the mother’s statement to police did not constitute an exception to Louisiana’s
hearsay exclusion rules. No state court has declared an error was made. As the state courts
concluded, the decision met with the dictates of Louisiana’s evidentiary rules. Armstead did not
establish that the mother was not available to testify about her own statements, nor did he or his
counsel indicate any effort to secure her presence at trial. In addition, Armstead has pointed to
nothing to establish, under La. Code Ev. art. 803(B)(3), the trustworthiness of the mother’s out-

13

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 14 of 29

of-court statement in which she claimed her daughter told her she lied about the rape. Thus, the
preclusion was proper under state law. Without an error under state law, Armstead “has no basis
for any alleged due process violation.” See McClain v. Cain, No. 14-1452, 2015 WL 4509666, at
*14 (E.D. La. July 24, 2015).
Furthermore, even if due process is considered under federal law, Armstead has not
established that the exclusion of the specifics of the mother’s statement had an injurious effect on
the verdict. A due process violation exists when the wrongfully admitted testimony “played a
crucial, critical, and highly significant role in the trial” in a manner that unfairly impacted the
jury’s verdict. Little v. Johnson, 162 F.3d 855, 862 (5th Cir. 1998). The question of whether a
petitioner’s due process rights were violated is a mixed question of law and fact. Livingston v.
Johnson, 107 F.3d 297, 309 (5th Cir. 1997); see Wilkerson v. Cain, 233 F.3d 886, 890 (5th Cir.
2000) (issues of due process present mixed questions of law and fact.). On habeas review, a federal
court must determine if the state courts’ denial of relief on the issue was contrary to or involved
an unreasonable application of Supreme Court precedent.
At trial, Armstead’s counsel was able to question Detective Neely to establish that he
closed the case as unfounded based on discussions with T.B.’s mother. The jury therefore heard
that the detective believed the case was baseless because of statements by T.B.’s mother. Armstead
. has not demonstrated that the substance of her statements would have influenced the jury, except
to imply that T.B. was sexually active, something he was not allowed to do under state law. The
defense’s goal was to place before the jury the fact that Detective Neely thought the claims were
i

baseless, and that goal was met. Armstead, therefore, has not demonstrated that the state trial
court’s evidentiary ruling had any adverse impact on his trial or the jury’s verdict.

14

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 15 of 29

Armstead has not shown that the state courts’ denial of relief was contrary to or an
unreasonable application pf federal law. He is not entitled to relief on this issue.
C.

Denial of the Motion for New Trial (Claim No. 3)

Armstead claims that state trial court erred by denying the motion for new trial when the
victim testified at the post-conviction hearing that she was told not to come to court on the day of
trial because there would be jury selection all day. Armstead asserted this claim on direct appeal.
The Louisiana Fourth Circuit denied relief holding, as to this argument, that Armstead failed to
prove grounds for a new trial. The Court found that the victim’s testimony was not relevant to his
guilt or innocence on the charge of felony carnal knowledge of a juvenile. This was the last
reasoned opinion on the issue.32 Wilson.
As an initial matter, Armstead’s argument that the state trial court erred when it denied his
motion for a new trial does not involve questions of federal or constitutional law, and review of
such claims is not proper on habeas review. Haygood v. Quarterman, 239 F. App’x 39, 42 (5th
Cir. 2007) (citing Dickerson v. Guste, 932 F.2d 1142, 1145 (5th Cir. 1991)) (state court’s denial
of a motion for a new trial does not necessarily constitute a violation of a federal constitutional
right).

A federal court does “not sit as [a] ‘super’ state supreme court in a habeas corpus

proceeding,” and instead is limited to review of questions of federal constitutional dimensions.

32Armstead asserted the issue on post-conviction review. The Louisiana Supreme Court denied relief on the
issue finding it repetitive of the matter addressed on direct appeal, citing La. Code Crim. P. art. 930.4. Article 930.4(A)
precludes post-conviction review in the Louisiana courts for claims already “fully litigated” on direct appeal. Bennett
v. Whitley, 41 F.3d 1581, 1583 (5th Cir. 1994). This rule presumes that the claims have been fully reviewed by the
state appellate court on direct appeal and by the Louisiana Supreme Court and therefore need not be considered again
on post-conviction application. Id. However, “the bar imposed by article 930.4(A) is not a procedural bar in the
traditional sense, nor is it a decision on the merits.” Id. The bar does not preclude federal habeas review of claims
that were considered on state direct appeal. This court simply “look[s]-through” the ruling on collateral review and
considers the direct appeal reasoning on the claim. Id. at 1582-83.
15

i :

i

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 16 of 29

Wilkerson, 16 F.3d at 67; Swarthout, 562 U.S. at 219 (federal habeas review does not lie for errors
of state law).
In this case, the state courts and this federal habeas court have addressed Armstead’s claim
that he was denied due process by the victim’s absence from trial and found that he has not
established a constitutional violation or that the denial of relief was contrary to Supreme Court
precedent. He presents the same argument here and it fairs no better. The victim’s decision not
to appear at trial did not change the evidence presented at trial demonstrating that 20-year old
Armstead had sexual intercourse with a 16-year old to whom he was not married to warrant a new
trial.
Armstead has failed to prove a constitutional violation in the failure of the victim to appear
or testify at his trial. The denial of relief on this companion issue arising from the denial of a new
trial is not contrary to or an unreasonable application of federal law. He is not entitled to relief on
this claim.
D.

Sufficiency of the Evidence (Claim No. 4)

Armstead claims that the evidence was insufficient to support the conviction, because the
jury should not have believed that he was the perpetrator when the victim named two other people
whom she said went to her school, Detective Neely closed the case as unfounded, and the DNA
evidence and the testing were unreliable.
On direct appeal, the Louisiana Fourth Circuit denied relief citing Jackson v. Virginia, 443
U.S. 307 (1979), and related state case law. The Court held that the evidence was sufficient to
establish that Armstead was over 19 and T.B. was 16 when he had sexual intercourse with T.B.
when they were not married. His identity and the sexual intercourse were established by the DNA

16

i

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 17 of 29

evidence and the presence of his sperm in T.B.’s vagina. This was the last reasoned opinion on
the issue. Wilson.
Claims of insufficient evidence present a mixed question of law and fact. Perez v. Cain,
529 F.3d 588, 594 (5th Cir. 2008); Maes v. Thomas, 46 F.3d 979, 988 (10th Cir. 1995). The Court
must therefore give deference to the state court’s findings unless the decision was contrary to or
involved an unreasonable application of Supreme Court law. Miller v. Johnson, 200 F.3d 274,281
(5th Cir. 2000).
The appropriate standard for determining the sufficiency of evidence is that set forth in
Jackson, relied on by the state appellate court, which requires a court to determine whether, after
viewing the record and the evidence in the light most favorable to the prosecution, a rational trier
of fact could have found the essential elements of the crime proven beyond a reasonable doubt.
Jackson, 443 U.S. at 319; Perez, 529 F.3d at 594; Williams v. Cain, 408 F. App’x 817, 821 (5th
Cir. 2011). Louisiana law allows for a crime to be proven by both direct and circumstantial
evidence.33
The Court’s consideration of the sufficiency of the evidence extends only to what was
presented at trial. See McDaniel v. Brown, 558 U.S. 120, 131, 134 (2010) (recognizing that a
reviewing court is to consider all of the trial evidence as a whole under Jackson); Johnson v. Cain,

33Under Louisiana law, “[tjhe rule as to circumstantial evidence is: assuming every fact to be proved that the
evidence tends to prove, in order to convict, it must exclude every reasonable hypothesis of innocence.” La. Rev.
Stat. Ann. § 15:438. However, on federal habeas corpus review, the court does not apply this state law, “reasonable
hypothesis” standard, and instead must apply the Jackson and AEDPA standards of review. See Gilley v. Collins, 968
F.2d 465, 468 (5th Cir. 1992) (citing Schrader v. Whitley, 904 F.2d 282, 284 (5th Cir. 1990)). To the extent Phillips
relies on Louisiana’s circumstantial evidence rule itself, “[tjhis is not a purely separate test from the Jackson standard
to be applied instead of a sufficiency of the evidence test.... Ultimately, all evidence, both direct and circumstantial,
must be sufficient under Jackson to satisfy a rational juror that the defendant is guilty beyond a reasonable doubt.”
State v. Porrelto, 468 So. 2d 1142, 1146 (La. 1985); accord State v. Williams, 693 So. 2d 204, 209 (La. App. 4th Cir.
1997). The reasonable hypothesis standard under state law is “just an evidentiary guide for the jury. If a rational trier
of fact reasonably rejects the defendant’s hypothesis of innocence, that hypothesis fails.” State v. Maxie, 614 So.2d
1318, 1321 (La. App. 3d Cir. 1993); accord Williams, 693 So. 2d at 209. The appropriate standard for this Court on
habeas review remains Jackson.
17

i

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 18 of 29

347 F. App’x 89, 91 (5th Cir. 2009) (quoting Jackson, 443 U.S. at 324) (Jackson standard relies
“upon the record evidence adduced at the trial.”)- The review of the sufficiency of the evidence,
however, does not include review of the weight of the evidence or the credibility of the witnesses,
because those determinations are the exclusive province of the jury. United States v. Young, 107
F. App’x 442, 443 (5th Cir. 2004) (per curiam) (citing United States v. Garcia, 995 F.2d 556, 561
(5th Cir. 1993)); see also Jackson, 443 U.S. at 319 (noting that it is the jury’s responsibility “to
resolve conflicts in the testimony, to weigh the evidence, and to draw reasonable inferences from
basic facts to ultimate facts.”) A reviewing federal habeas court, therefore, is not authorized to
substitute its interpretation of the evidence or its view of the credibility of witnesses for that of the
fact-finder. Weeks v. Scott, 55 F.3d 1059, 1062 (1995) (citing Alexander v. McCotter, 775 F.2d
595, 598 (5th Cir. 1985)). All credibility choices and conflicting inferences must be resolved in
favor of the verdict. Ramirez v. Dretke, 398 F,3d 691, 695 (5th Cir. 2005).
In addition, “[t]he Jackson inquiry ‘does not focus on whether the trier of fact made the
correct guilt or innocence determination, but rather whether it made a rational decision to convict
or acquit.’” Santellan v. Cockrell, 271 F.3d 190, 193 (5th Cir. 2001) (quoting Herrera v. Collins,
506 U.S. 390, 402 (1993)). Thus, to determine whether the commission of a crime is adequately
supported by the record, a court must review the substantive elements of the crime as defined by
state law. Perez, 529 F.3d at 594 (citing Jackson, 443 U.S. at 324 n.16).
Armstead was charged with and found guilty of felony carnal knowledge of a juvenile.
Under Louisiana law at the time, felony carnal knowledge of a juvenile occurred “when ... [a]
person who is nineteen years of age or older has sexual intercourse, with consent, with a person
who is twelve years of age or older but less than seventeen years of age, when the victim is not the
spouse of the offender . . .” La. Rev. Stat. Ann. § 14:80(A)(1) (West 2001). Louisiana law also

18

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 19 of 29

defined “sexual intercourse” to include “anal, oral, or vaginal sexual intercourse.” La. Rev. Stat.
Ann. § 14:80(B) (West 2001). In addition, “[I]ack of knowledge of the juvenile’s age shall not be
a defense. Emission is not necessary, and penetration, however slight, is sufficient to complete
the crime.” La. Rev. Stat. Ann. § 14:80(C) (West 2001).
In this case, Armstead challenges the jury’s determination that he had sexual intercourse
with T.B. as an element of the felony carnal knowledge crime. He specifically argues that the jury
unreasonably rejected the victim’s original statement that two of her schoolmates raped her,
tending to show he was not involved, and in believing the DNA results from an unreliable
laboratory, tending to prove that he was involved. However, it is not the province of this federal
habeas court to reconsider the credibility determinations made or to reweigh the evidence
considered by the jury as the factfinder. Weeks, 55 F.3d at 1062; see Jackson, 443 U.S. at 319.
The jury was well-within the ambit of its authority to resolve and consider the significant
amount of evidence brought before it that proved Armstead had sexual intercourse with T.B. This
included the jury’s consideration of the detectives’ testimony that T.B. changed the details of her
story several times, including the perpetrators and what happened to her the night of sex crime.34
The jury also heard lengthy testimony from several witnesses about the retention of the rape kit,
the DNA testing proving Armstead’s involvement, the reliability of the testing, and other relevant
information about the reliability of the testing lab itself.35 It was more than reasonable for the jury
to credit that testimony and resolve that Armstead, who was over age 19, had sexual intercourse
(established by the presence of his sperm/DNA in her vagina) with T.B., who was age 16.36

34St. Rec. Vol. 2 of 7, Trial Transcript, pp. 20-21, 22-24, 28-29 (Detective Neely), 3/26/13.
25Id., pp. 33-43, 74-142, 148-152, 156-162 (sexual assault nurse exam and DNA experts).
36This Court need not consider the victim’s consent as part of its Jackson review. The state trial court
instructed the jury that proof of consent was not a required element of felony carnal knowledge. Id., p. 172. On direct
appeal, the Louisiana Fourth Circuit agreed, citing State v. Smith, 649 So.2d 145, 146 (La. App. 2nd Cir. 1995). The
19

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 20 of 29

For these reasons, Armstead has failed to establish that the denial of relief on this claim
was contrary to or an unreasonable application of Jackson. He is not entitled to relief on this issue.
E.

Effective Assistance of Counsel (Claim No. 5)

Under a broad reading, Armstead appears to assert that his counsel was ineffective because
she did not file a pretrial appeal after the state trial court reversed itself and denied the motion to
quash the indictment. Armstead first asserted this claim in his application for post-conviction
relief. The Louisiana Supreme Court provided the last reasoned decision denying relief on the
showing made, citing Strickland.
The Supreme Court’s holding in Strickland, 466 U.S. at 668, relied upon by the state courts,
is the appropriate standard for judging the performance of counsel. In Strickland, the Supreme
Court established a two-part test for evaluating claims of ineffective assistance of counsel in which
the petitioner must prove deficient performance and prejudice therefrom. See Strickland, 466 U.S.
at 687.

The petitioner has the burden of proving ineffective assistance of counsel by a

preponderance of the evidence. Montoya v. Johnson, 226 F.3d 399, 408 (5th Cir. 2000); Jernigan
v. Collins, 980 F.2d 292, 296 (5th Cir. 1992). In deciding ineffective assistance claims, a court
need not address both prongs of the conjunctive Strickland standard, but may dispose of such a
claim based solely on a petitioner’s failure to meet either prong of the test. Amos v. Scott, 61 F.3d
333,348 (5th Cir. 1995).
To prevail on the deficiency prong, petitioner must demonstrate that counsel’s conduct
failed to meet the constitutional minimum guaranteed by the Sixth Amendment. See Styron v.
Johnson, 262 F.3d 438, 450 (5th Cir. 2001).

‘The defendant must show that counsel’s

Louisiana Supreme Court affirmed that ruling without further comment. Armstead, 184 So.3d at 692; St. Rec. Vol. 6
of 7, La. S. Ct. Order, 2015-K-0392, 1/8/16.
20

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 21 of 29

representation fell below an objective standard of reasonableness.” Strickland, 466 U.S. at 68788. The analysis of counsel’s performance must take into account the reasonableness of counsel’s
actions under prevailing professional norms and in light of all of the circumstances. See Id., 466
U.S. at 689; Carty v. Thaler, 583 F.3d 244,258 (5th Cir. 2009). The reviewing court must “judge
. . . counsel’s challenged conduct on the facts of the particular case, viewed as of the time of
counsel’s conduct.” Roe v. Flores-Ortega, 528 U.S. 470,477 (2000) (quoting Strickland, 466 U.S.
at 690). Petitioner must overcome a strong presumption that the conduct of his counsel falls within
a wide range of reasonable representation. Harrington, 562 U.S. at 104 (citing Strickland, 466
U.S. at 689). “[I]t is all too easy to conclude that a particular act or omission of counsel was
unreasonable in the harsh light of hindsight.” Bell, 535 U.S. at 702 (citing Strickland, 466 U.S. at
689). As a result, federal habeas courts presume that trial strategy is objectively reasonable unless
clearly proven otherwise. Strickland, 466 U.S. at 689; Johnson v. Dretke, 394 F.3d 332, 337 (5th
Cir. 2004) (counsel’s “‘conscious and informed decision on trial tactics and strategy cannot be the
basis for constitutionally ineffective assistance of counsel unless it is so ill chosen that it permeates
the entire trial with obvious unfairness.’”) (quoting United States v. Jones, 287 F.3d 325, 331 (5th
Cir. 2002)); Geiger v. Cain, 540 F.3d 303, 309 (5th Cir. 2008).
To prove prejudice, the petitioner “must show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694; Williams v. Thaler, 602 F.3d 291, 310 (5th Cir. 2010). Furthermore,
“[t]he petitioner must ‘affirmatively prove,’ and not just allege, prejudice.” Day v. Quarterman,
566 F.3d 527, 536 (5th Cir. 2009) (quoting Strickland, 466 U.S. at 695). In this context, “a
reasonable probability is a probability sufficient to undermine confidence in the outcome.” Cullen,
563 U.S. at 189 (quoting Strickland, 466 U.S. at. 694). This standard requires a “substantial,” not

21

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 22 of 29

just “conceivable,” likelihood of a different result. Harrington, 562 U.S. at 112. To determine
whether prejudice occurred, courts must review the record to determine “the relative role that the
alleged trial errors played in the total context of [the] trial.” Crockett v. McCotter, 796 F.2d 787,
793 (5th Cir. 1986). Thus, conclusory allegations of ineffective assistance of counsel, with no
showing of effect on the proceedings, do not raise a constitutional issue sufficient to support federal
habeas relief. Miller, 200 F.3d at 282 (citing Ross v. Estelle, 694 F.2d 1008, 1012 (5th Cir. 1983)).
On habeas review, the Supreme Court has clarified that, in applying Strickland, “[t]he
question is whether an attorney’s representation amounted to incompetence under prevailing
professional norms, not whether it deviated from best practices or most common custom.”
Harrington, 562 U.S. at 105. The Harrington Court went on to recognize the high level of
deference owed to a state court’s findings under Strickland in light of AEDPA standards of review:
The standards created by Strickland and §2254(d) are both highly deferential, and
when the two apply in tandem, review is doubly so. The Strickland standard is a
general one, so the range of reasonable applications is substantial. Federal habeas
courts must guard against the danger of equating unreasonableness under Strickland
with unreasonableness under § 2254(d). When § 2254(d) applies, the question is
not whether counsel’s actions were reasonable. The question is whether there is
any reasonable argument that counsel satisfied Strickland's deferential standard.
Id., at 105 (citations and quotation marks omitted).
Thus, scrutiny of counsel’s performance under § 2254(d) therefore is “doubly deferential.”
Cullen, 563 U.S. at 190 (quoting Knowles v. Mirzayance, 556 U.S. Ill, 112 (2009)). The federal
courts must take a “highly deferential” look at counsel’s performance under the Strickland standard
through the “deferential lens of § 2254(d).” Id. (citing Strickland, 466 U.S. at 689, and quoting
Knowles, 556 U.S. at 121 n.2). This Court must also apply the “strong presumption” that counsel’s
strategy and defense tactics fall “within the wide range of reasonable professional assistance.”
Strickland, 466 U.S. at 690; Moore v. Johnson, 194 F.3d 586, 591 (5th Cir. 1999).

22

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 23 of 29

Federal habeas courts presume that trial strategy is objectively reasonable unless clearly
proven otherwise by the petitioner. Strickland, 466 U.S. at 689; Geiger, 540 F.3d at 309; Moore,
194 F.3d at 591. In assessing counsel’s performance, a federal habeas court must make every
effort to eliminate the distorting effects of hindsight, to reconstruct the circumstances of counsel’s
challenged conduct, and to evaluate the conduct from counsel’s perspective at the time of trial.
Strickland, 466 U.S. at 689; Neal, 286 F.3d at 236-37; Clark v. Johnson, 227 F.3d 273, 282-83
(5th Cir. 2000).

Tactical decisions, when supported by the circumstances, are objectively

reasonable and do not amount to unconstitutionally deficient performance. Lamb v. Johnson, 179
F.3d 352, 358 (5th Cir. 1999) (citing Rector v. Johnson, 120 F.3d 551, 564 (5th Cir. 1997) and
Mann v. Scott, 41 F.3d 968, 983-84 (5th Cir. 1994)).
The denial of effective assistance of counsel under Strickland is a mixed question of law
and fact. Clark v. Thaler, 673 F.3d 410,416 (5th Cir. 2012); Woodfox v. Cain, 609 F.3d 774, 789
(5th Cir. 2010). The question before the Court is whether the state courts’ denial of relief on these
claims was contrary to or an unreasonable application of United States Supreme Court precedent.
As an initial matter, Armstead has asserted a vague and conclusory claim which in and of
itself is insufficient to support a claim under Strickland. See Miller, 200 F.3d at 282 (conclusory
allegations of ineffective assistance of counsel, with no showing of effect on the proceedings, do
not raise a constitutional issue sufficient to support federal habeas relief.). Nevertheless, broadly
construing his arguments, the record fails to establish that he received ineffective assistance.
The record reflects that, on January 21,2011, Armstead’s counsel filed motions for speedy
trial and to quash the indictment.37 Counsel later withdrew the motion to quash and re-asserted

37St. Rec. Vol. 1 of 7, Minutes, 6/21/11; Minutes, 7/14/11. For the most concise pretrial procedural history
on these matters, see St. Rec. Vol. 3 of 7,4th Cir. Writ Application, 201 l-K-0865, pp. 4-6, 6/29/11,
23

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 24 of 29

the speedy trial motion. On June 7, 2011, the parties appeared before the state trial court for the
scheduled jury trial and defense counsel filed a motion to dismiss the indictment citing speedy trial
arguments.38 On June 21, 2011, the state trial court did not dismiss the indictment but granted
Armstead release on bond pending trial.39 The State immediately sought review in the Louisiana
Fourth Circuit, which was denied.40 On July 14, 2011, the Louisiana Supreme Court also denied
relief.41
On September 25, 2012, the State amended the indictment to reduce the aggravated rape
charge to felony carnal knowledge of a juvenile 42 As the matter proceeded to jury selection that
day, Armstead’s counsel orally moved to quash the indictment as untimely prosecuted on the
felony carnal knowledge charge outside of the statutory three-year limitations period 43 The state
trial court granted the motion subject to the filing of a written motion (which later was filed) and
scheduled a hearing on the State’s request that it reconsider the motion to quash.44 The Court also
granted the State’s request for an appeal.
On November 9, 2012, defense counsel did not appear for the scheduled hearing, although
Armstead was present45 Instead, Armstead’s counsel wrote a rather impertinent letter to the state
trial court explaining her absence, chastising the court for its prior rulings, and questioning why

38St. Rec. Vol. 1 of 7, Minute Entry, 9/25/12; Motion to Dismiss, dated 6/7/12.
39St. Rec. Vol. 1 of7, Minutes, 6/21/11; Minutes, 7/14/11.
40St. Rec. Vol. 3 of 7, 4th Cir. Order, 2011-K-0865, 7/12/11.
4XState v. Armstead, 67 So.3d 474 (La. 2011); St. Rec. Vol. 4 of 7, La. S. Ct. Order, 201 l-KK-1541, 7/14/11.
42St. Rec. Vol. 1of 7, Minute Entry, 9/25/12; Motion to Quash, dated 9/28/12.
43St. Rec. Vol. 1of 7, Minute Entry, 9/25/12; St. Rec. Vol. 2 of 7, Hearing Transcript, 9/25/12.
^St. Rec. Vol. 1of 7, Minute Entry, 9/25/12; Minute Entry, 11/9/12.
45St. Rec. Vol. 1of 7, Minute Entry, 11/9/12; St. Rec. Vol. 2 of 7, Hearing Transcript, 11/9/12.
24

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 25 of 29

she and Armstead had to appear for a hearing after the Court already granted the motion to quash.46
In addition, defense counsel indicated that, if the state trial court reversed its prior ruling or the
State refiled the charges, that the matter be set for trial to avoid further inconvenience for
Armstead. The state trial court reconsidered its ruling and denied the motion to quash.
Apparently, Armstead believes that his counsel should not have asked for a trial setting if
the motion to quash was denied and instead should have sought review of the state trial court’s
reconsideration and denial of the motion to quash. However, the matter was in fact reviewed twice
on direct appeal.
First, the Louisiana Fourth Circuit addressed this issue sua sponte on its errors patent
review. The Court held that the state trial court was divested of jurisdiction when it reconsidered
the motion to quash or conduct the trial and vacated the conviction and sentence.47 However, the
Louisiana Supreme Court reinstated the conviction and sentence because the state trial court erred
in considering an oral motion to quash and never lost jurisdiction. 48
In its second appeal opinion that followed, the Louisiana Fourth Circuit similarly held that
the trial court correctly denied the motion to quash. The Court thoroughly reviewed the pretrial
proceedings and specifically found that the institution of the charges against Armstead were
timely.
Based on those proceedings and the rulings of the higher courts, Armstead suffered no
prejudice from his counsel’s failure to seek pretrial review of the state trial court’s order. Armstead

46St. Rec. Vol. 1 of 7, Letter from Defense Counsel, 11/7/12.
47Armstead, 144 So.3d at 66; St. Rec. Vol. 5 of 7, 4th Cir. Opinion, 2014-KA-0036, 6/4/14.
48Armstead, 147 So.3d at 162; St. Rec. Vol. 5 of 7, La. S. Ct. Order, 2014-K-1365, 9/12/14.
25

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 26 of 29

is unable to show that the Louisiana Fourth Circuit would have reached a different conclusion had
it reviewed the same claim in a pretrial writ application brought by his trial counsel.
For these reasons, Armstead’s counsel was not deficient for failing to bring the meritless
claim in an earlier proceeding. See United States v. Kinder, 167 F.3d 889, 893 (5th Cir. 1999)
(“An attorney’s failure to raise a meritless argument thus cannot form the basis of a successful
ineffective assistance of counsel claim”); see also Koch v. Puckett, 907 F.2d 524, 527 (5th Cir.
1990) (“counsel is not required to make futile motions or objections.”) Armstead therefore has
not established that the denial of relief on this claim was contrary to or an unreasonable application
of federal law. He is not entitled to relief on this issue.
F.

Trial Court’s Jurisdiction (Claim No. 6)

Armstead asserts that the state trial court was without jurisdiction to grant any relief to the
State’s from the denial of the motion to quash after it granted the State’s motion for leave to appeal.
He argues that under Louisiana law, the state trial court was divested of jurisdiction by the appeal
and had no authority to reconsider its granting on the motion to quash.
As mentioned above, the Louisiana Fourth Circuit first addressed this issue sua sponte as
an error patent in its first opinion on direct appeal that was later reversed.49 More specifically, the
Court held that the state trial court was divested of jurisdiction under La. Code Crim. P. art. 916
when it granted the State’s motion to appeal and had no jurisdictional authority to reconsider its
ruling granting Armstead’s motion to quash or take any other action after that ruling.
The Louisiana Supreme Court disagreed and adopted the well-reasoned dissent to the
Louisiana Fourth Circuit’s opinion.50 In the dissenting opinion, the circuit judge first reasoned

^Armstead, 144 So.3d at 66; St. Rec. Vol. 5 of 7, 4th Cir. Opinion, 2014-KA-0036, 6/4/14.
S0Armstead, 147 So.3d at 162; St. Rec. Vol. 5 of 7, La. S. Ct. Order, 2014-K-1365, 9/12/14; Armstead, 144
26

i

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 27 of 29

that the appellate court erred because the matter was not reviewable as an errors patent. Second,
the dissent resolved that under Louisiana law, the oral motion by Armstead’s counsel was the
equivalent of no motion at all and could not be and should not have been considered by the state
trial court. Because there was no proper motion, the State had nothing to appeal and the state trial
court erred in granting the motion to appeal. Further, the trial court’s actions in ordering the
defense to file a written motion and allowing the State to file an opposition suggested that the state
trial court kept the matter under advisement. Finally, the dissent noted that the jurisdictional issue
was not properly preserved for appeal. As noted above, when the matter was considered on appeal,
the Louisiana Fourth Circuit found the denial of the motion to quash to have been proper because
the felony carnal knowledge charge was timely. That ruling was confirmed by the Louisiana
Supreme Court.
Armstead later asserted this jurisdictional issue in his state application for post-conviction
relief. Ultimately, the Louisiana Supreme Court denied relief finding the claim repetitive of the
claim addressed on direct appeal.51
As already discussed in this report, this Court does not consider a state court’s application
of state law or determination of state-law questions. Swarthout, 562 U.S. at 219; Wilkerson, 16
F.3d at 67. It is not the function of this habeas court to determine whether the state trial court
divested itself of jurisdiction under state law.
Instead, if the petitioner demonstrates that an error under state law occurred, a federal court
may grant habeas relief if the error resulted in the violation of a specific federal constitutional right

So.3d at 74 (McKay, C.J. dissenting); St. Rec. Vol. 5 of 7, 4th Cir. Opinion, 2014-KA-0036, p. 15, 6/4/14.
5iAs noted previously, the finding of repetitiveness under La. Code Crim. P. art. 930.4(A) does not prevent
this Court from considering the reasons assigned in the appellate decisions.
27

!

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 28 of 29

or rendered the state court proceeding fundamentally unfair. See Gochicoa, 118 F.3d at 446. To
do so, the petitioner must demonstrate that the error had a substantial and injurious effect on the
outcome of the proceeding. See Fry, 551 U.S. at 112.
Once again, Armstead has failed to prove an error was made under state law. First, the
Louisiana Supreme Court decreed that the trial court was not divested of jurisdiction when it
improvidently granted the State’s motion to appeal the granting of the oral motion to quash. The
higher state courts later resolved that the state trial court “correctly” denied the motion to quash as
meritless because the felony carnal knowledge charge was timely. For these reasons, Armstead
has failed to establish that a state law error occurred in his proceedings.
He likewise has presented no federal constitutional violation arising from the actions of the
state courts. The record is clear that Armstead was provided significant review of the jurisdictional
authority of the state trial court and the propriety of the denial of his motion to quash. He has
pointed to nothing to demonstrate that he was denied a fair hearing on any aspect of his claims,
and the record reflects none.
For these reasons, the state courts’ denial of relief was not contrary or an unreasonable
application of federal law. Armstead is not entitled to relief on this claim.
VI.

Recommendation
For the foregoing reasons, it is RECOMMENDED that Randolph Armstead’s petition for

issuance of a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254 be DENIED and
DISMISSED WITH PREJUDICE.
A party’s failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge’s report and recommendation within fourteen (14) days
after being served with a copy shall bar that party, except upon grounds of plain error, from

28

Case 2:17-cv-05947-NJB Document 18 Filed 05/21/19 Page 29 of 29

attacking on appeal the unobjected-to proposed factual findings and legal conclusions accepted by
the district court, provided that the party has been served with notice that such consequences will
result from a failure to object. Douglassv. United Servs. Auto. Ass’n, 79 F.3d 1415,1430(5thCir.
1996).52
New Orleans, Louisiana, this 17th day of May, 2019.

------ kXREN''YVtfLLS R0lJY\
CHIEF UNITED STATES MAGISTRATE JUDGE

52Douglass referenced the previously applicable ten-day period for the filing of objections. Effective
December 1, 2009, 28 U.S.C. § 636(b)(1) was amended to extend the period to fourteen days.
29

I

Additional material
i

from this filing is
available in the
Clerk's Office.
1

